                                                                   Issue Date
                                                                         September 4, 2007
                                                                   Audit Report Number
                                                                            2007-LA-1015




TO:         Stephen Schneller, Director, Office of Public and Indian Housing, Region IX,
            9APH




FROM:       Joan S. Hobbs, Regional Inspector General for Audit, Region IX, 9DGA

SUBJECT: The Housing Authority of the City of North Las Vegas, Nevada, Significantly
          Underleased Its Section 8 Housing Choice Voucher Program


                                    HIGHLIGHTS

 What We Audited and Why

      We audited the Housing Authority of the City of North Las Vegas, Nevada (the
      Authority), based on concerns expressed by the San Francisco Office of Public and
      Indian Housing regarding the administration of its Section 8 Housing Choice Voucher
      program funds.

      The objective of the audit was to determine whether the Authority administered its
      Section 8 Housing Choice Voucher program funds in accordance with U.S. Department
      of Housing and Urban Development (HUD) requirements.

 What We Found


      The Authority did not follow HUD requirements when administering its Section 8
      Housing Choice Voucher program funds. Although the Authority had $4.4 million in
      program funds and related interest to house additional eligible participants, its Section 8
      program was significantly underleased. We attributed this to the Authority’s inadequate
      management of its Section 8 Housing Choice Voucher program. As a result, eligible
      Section 8 participants were denied the opportunity to seek safe, decent, and quality
      housing under the Section 8 Housing Choice Voucher program.
What We Recommend


     We recommend that the director of the San Francisco Office of Public and Indian
     Housing require the Authority to implement adequate controls and procedures to ensure it
     does not underlease its Section 8 Housing Choice Voucher program.

     For each recommendation without a management decision, please respond and provide
     status reports in accordance with HUD Handbook 2000.06, REV-3. Please furnish us
     copies of any correspondence or directives issued because of the audit.

Auditee’s Response


     We provided the draft report to the Authority on August 16, 2007, and held an exit
     conference on August 23, 2007. The Authority provided written comments on
     August 29, 2007. The Authority fully agreed with our report.

     The complete text of the auditee’s response can be found in appendix B of this report.




                                             2
                              TABLE OF CONTENTS

Background and Objectives                                                            4

Results of Audit
   Finding 1: The Authority Significantly Underleased Its Section 8 Housing Choice   5
   Voucher Program

Scope and Methodology                                                                7

Internal Controls                                                                    8

Appendixes
   A.   Schedule of Questioned Costs and Funds to Be Put to Better Use               9
   B.   Auditee Comments                                                             10
   C.   Schedule of Section 8 Funding and Voucher Leasing Levels                     12
   D.   Schedule of Interest Earned from Section 8 Funds                             13
   E.   Criteria                                                                     14




                                              3
                     BACKGROUND AND OBJECTIVES

The Housing Authority of the City of North Las Vegas (Authority) is a public agency organized
under the laws of the State of Nevada by the City of North Las Vegas for the purpose of
providing adequate housing for qualified low-income individuals. Funding for the Authority is
primarily from the U.S. Department of Housing and Urban Development (HUD), with the
majority of its funding generated from HUD’s Section 8 Housing Choice Voucher program. The
Authority also receives funding from the following sources: HUD’s Public Housing Capital
Fund program, HUD’s Low-Rent Housing program, HUD’s HOME program, non-HUD-funded
properties, and its non-HUD-funded business ventures.

The Authority administers 1,371 Section 8 housing choice vouchers. During the period
January 1, 2005, to March 31, 2007, the Authority received $26.1 million in housing assistance
funds.

Our audit objective was to determine whether the Authority administered its Section 8 Housing
Choice Voucher program funds in accordance with HUD requirements.




                                               4
                                RESULTS OF AUDIT

Finding 1: The Authority Significantly Underleased Its Section 8
Housing Choice Voucher Program

Although the Authority had sufficient funds to house eligible participants, its Section 8 program
was significantly underleased. We attributed this to the Authority’s inadequate management and
staffing of its Section 8 Housing Choice Voucher program. As a result, the Authority did not
meet HUD’s expected lease-up thresholds and it did not use nearly $4.4 million in program funds
and related interest to provide eligible participants safe, decent, and quality housing.



 Section 8 Voucher Leasing
 Threshold Not Met


       As part of the Section 8 Housing Choice Voucher program, HUD expects public housing
       authorities to lease up at least 95 percent of the allocated yearly vouchers issued to
       participants. HUD uses this threshold as part of its review and scoring of the Authority’s
       Section 8 program.

       During the period January 1, 2005, to March 31, 2007, the Authority averaged a lease-up
       rate of 89.5 percent (see appendix C). HUD expressed concerns that the Authority did
       not meet the expected lease-up threshold during the period of the review. In addition, the
       Authority’s inability to meet HUD’s expected lease-up levels raised concerns about the
       management of the Section 8 program.

       During this same period, HUD paid the Authority $26.1 million in Section 8 funding to
       provide housing assistance for participants in the Section 8 Housing Choice Voucher
       program. Of this amount, the Authority spent $21.8 million in housing assistance
       payments (see appendix C). Therefore, $4.4 million in Section 8 funds and the related
       interest earned went unused. During this period, the Authority maintained the unused
       funds in an interest-bearing bank account that earned $120,028 in interest (see appendix
       D). According to the Authority, its bank account continued to accumulate unused
       Section 8 funds while earning interest.


 Problems Acknowledged


       The Authority acknowledged the problems associated with its administration of the
       Section 8 Housing Choice Voucher program and attributed the problems to several
       issues. The Authority contended that there were staffing shortages, which resulted in


                                                5
       low morale. It stated that constant turnover of Section 8 managers within the past few
       years played a role in the lack of continuity and stability in the Section 8 program. In
       addition, there were lengthy delays in Section 8 applicant background checks. To
       alleviate the problems, the Authority opened its waiting list and issued vouchers to meet
       HUD’s lease-up requirements for the fiscal year ending June 30, 2007. In addition, the
       Authority eventually contracted out its background check services to another firm to
       speed up the process. The Authority’s management suggested the possibility of merging
       with another public housing authority with adequate staffing and resources as a way of
       better administering its Section 8 Housing Choice Voucher program. The Authority’s
       board of commissioners supported the Authority and its action plan to deal with the
       problems identified.


 Conclusion


       The Authority’s inadequate administration of its Section 8 Housing Choice Voucher
       program resulted in unfulfilled leasing expectations and unused program funds. This
       caused eligible Section 8 participants to be denied the opportunity to find safe, decent,
       and quality housing under the program. Discussions with the Authority, its board of
       commissioners, and HUD officials included a number of suggestions, such as merging
       with another public housing authority, transferring the Section 8 program to another
       public housing authority, and hiring a Section 8 manager capable of ensuring that
       program funds are administered in accordance with HUD requirements.


 Recommendations


We recommend that the director of the San Francisco Office of Public and Indian Housing
require the Authority to

       1A. Implement adequate controls and procedures to ensure all vouchers are used so that
           Section 8 Housing Choice Voucher program funds are fully used to provide housing
           to eligible participants on an annual basis, thereby putting $4,419,629 (Section 8
           funds and accumulated earned interest) in program funds to better use.




                                                6
                        SCOPE AND METHODOLOGY

We performed on-site work at the Authority, located in North Las Vegas, Nevada, from January
through June 2007. Our audit generally covered the period July 1, 2004, through March 31,
2007. This period was adjusted as necessary. Our objective was to determine whether the
Authority administered its Section 8 Housing Choice Voucher program funds in accordance with
HUD requirements.

To accomplish our objective, we

   •   Reviewed Authority operations related to its administration of Section 8 Housing Choice
       Voucher program funds;

   •   Interviewed Authority and HUD staff to obtain information about the Authority and its
       Section 8 Housing Choice Voucher program;

   •   Reviewed Authority financial records; and

   •   Reviewed public records and databases.

We performed our audit in accordance with generally accepted government auditing standards.




                                                7
                              INTERNAL CONTROLS

Internal control is an integral component of an organization's management that provides
reasonable assurance that the following objectives are being achieved:

       •   Effectiveness and efficiency of operations,

       •   Reliability of documents,

       •   Compliance with applicable laws and regulations, and

       •   Safeguarding of assets.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


       We determined the following internal controls were relevant to our audit objectives:

           •   Reliability of documents used in the administration of Section 8 Housing Choice
               Voucher program funds.

           •   Policies and procedures in place to ensure that Section 8 Housing Choice Voucher
               program funds were administered in compliance with HUD requirements.

           •   Safeguarding Section 8 Housing Choice Voucher program funds from high-risk
               exposure through controls over its administration of such funds.

       We assessed the relevant controls identified above.

       A significant weakness exists if management controls do not provide reasonable
       assurance that the process for planning, organizing, directing, and controlling program
       operations will meet the organization’s objectives.


Significant Weaknesses

       The Authority did not have sufficient controls to ensure it met HUD’s expected leasing
       thresholds for issuing available vouchers to eligible participants.


                                                8
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

                           Recommendation        Funds to Be Put
                               Number            to Better Use 1/
                                   1A              $4,419,629

1/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. This includes reductions in outlays, deobligation of funds, withdrawal of
     interest subsidy costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     which are specifically identified.

     By implementing a plan that ensures the Authority meets HUD’s expected leasing
     thresholds in issuing available vouchers, it can provide more housing assistance to
     eligible participants.




                                             9
Appendix B

             AUDITEE COMMENTS




                    10
11
Appendix C

       SCHEDULE OF SECTION 8 FUNDING AND VOUCHER
                        LEASING LEVELS
     Month          Monthly      Monthly      Monthly     Voucher      Section 8       Section 8      Monthly
                    number       number       number      lease-up      funding      funding used    Section 8
                         of          of          of         levels    provided to       by the       funds not
                    vouchers     vouchers     vouchers               the Authority     Authority    used by the
                     allowed      issued      not used                                               Authority
January 1, 2005          1,371        1,296          75     94.53%      $1,006,170       $920,929        $85,241
February 1, 2005         1,371        1,285          86     93.73%      $1,006,170      $914,081         $92,089
March 1, 2005            1,371        1,274          97     92.92%      $1,006,170      $886,513       $119,657
April 1, 2005            1,371        1,253         118     91.39%        $946,110       $871,705        $74,405
May 1, 2005              1,371        1,247         124     90.96%        $946,110       $854,557        $91,553
June 1, 2005             1,371        1,229         142     89.64%        $946,110       $831,213      $114,897
July 1, 2005             1,371        1,215         156     88.62%        $946,110       $819,288      $126,822
August 1, 2005           1,371        1,211         160     88.33%        $946,110       $814,192       $131,918
September 1, 2005        1,371        1,212         159     88.40%        $946,110       $797,303       $148,807
October 1, 2005          1,371        1,234         137     90.01%        $946,110       $828,334       $117,776
November 1, 2005         1,371        1,281          90     93.44%        $946,110       $868,670        $77,440
December 1, 2005         1,371        1,333          38     97.23%        $946,110       $901,435        $44,675
January 1, 2006          1,371        1,284          87     93.65%        $979,458       $852,388       $127,070
February 1, 2006         1,371        1,287          84     93.87%        $979,458       $805,861      $173,597
March 1, 2006            1,371        1,283          88     93.58%        $979,458       $842,386      $137,072
April 1, 2006            1,371        1,242         129     90.59%        $979,458       $769,987      $209,471
May 1, 2006              1,371        1,244         127     90.74%        $979,458       $787,408      $192,050
June 1, 2006             1,371        1,211         160     88.33%        $979,458       $781,428      $198,030
July 1, 2006             1,371        1,226         145     89.42%        $979,458       $757,810      $221,648
August 1, 2006           1,371        1,182         189     86.21%        $979,458       $731,344       $248,114
September 1, 2006        1,371        1,161         210     84.68%        $979,458       $746,732       $232,726
October 1, 2006          1,371        1,135         236     82.79%        $979,458       $731,512       $247,946
November 1, 2006         1,371        1,168         203     85.19%        $979,458       $685,346       $294,112
December 1, 2006         1,371        1,146         225     83.59%        $979,458       $747,744       $231,714
January 1, 2007          1,371        1,142         229     83.30%        $979,458       $761,232       $218,226
February 1, 2007         1,371        1,182         189     86.21%        $916,793       $774,342      $142,451
March 1, 2007            1,371        1,157         214     84.39%        $948,126       $748,032      $200,094
Total                   37,017      33,120        3,897     89.50%     $26,131,373    $21,831,772     $4,299,601




                                                     12
Appendix D

   SCHEDULE OF INTEREST EARNED FROM SECTION 8
                     FUNDS

              Month                 Interest earned
              November 2005                   $1,809
              December 2005                   $3,162
              January 2006                    $3,590
              February 2006                   $3,921
              March 2006                      $4,708
              April 2006                      $4,659
              May 2006                        $6,499
              June 2006                       $6,666
              July 2006                       $7,554
              August 2006                     $7,717
              September 2006                  $7,338
              October 2006                    $8,628
              November 2006                   $9,696
              December 2006                  $10,794
              January 2007                   $10,576
              February 2007                  $10,347
              March 2007                     $12,364
              Total                        $120,028

             Note: The Authority did not open the
             interest-bearing account until November
             2005.




                               13
Appendix E

                                      CRITERIA

Notice PIH [Public & Indian Housing] 2005-9 states: “PHAs [public housing authorities] are
provided a fixed amount of funds to assist as many families as possible, provided that on
December 31, 2005, the number of unit months leased [vouchers issued] for the calendar year
does not exceed the cumulative number of unit months available [vouchers authorized for use]
for the same period.”

Notice PIH [Public & Indian Housing] 2006-03 states: “…excess budget authority disbursed to
PHAs that is not utilized to pay Housing Assistance Payments (HAP)…may only be used to
assist additional families up to the number of units [vouchers] under contract. HUD will closely
monitor both overutilization and underutilization of funds and will take appropriate action to
assure appropriated funds are being used to serve as many families up to the number of vouchers
authorized under the program.”




                                               14
